No. 487906
Division “D”

22nd Judicial District Court
Parish of St. Tammany
State of Louisiana
JESSIE E. SHELTON,

v.
ROBERT C. TANNER, WARDEN
B.B. RAYBURN CORRECTIONAL CENTER,
Filed: 9-4-12

Teresa A. Cooper,
Deputy Clerk “s/”

ORDER DISMISSING APPLICATION FOR POSTCONVICTION RELIEF
Petitioner filed an application for post-conviction relief
asserting three claims following his guilty plea to Aggravated
Incest. First, Petitioner contends he was not advised of his right
to appeal his guilty plea conviction and was otherwise denied his
appeal due to failure of his trial counsel to timely perfect an
appeal for him. Petitioner, clearly waived his right to appeal by
any action of defense counsel because he knowingly and
intelligently waived that right. It should be also noted that
petitioner was represented by counsel at each appearance before
the court. Accordingly, this claim is without merit. In second
claim petitioner attacks the plea bargain as an absolute nullity.
The court has thoroughly reviewed and likewise finds this claim,
including allegations that he was not sentenced harshly enough,
completely without merit. Finally, in the third claim, petitioner
1a

2a
states that his plea was unknowing and involuntary “given the
scope of the court’s canvassing”. Again, the court has reviewed
the Boykin transcript and finds petitioner’s assertions without
merit.
Accordingly, after considering the application for postconviction relief filed by Jessie Shelton, the law and the entire
record of this matter,
IT IS ORDERED that the Application for Post-Conviction
Relief filed by Jessie Shelton be dismissed. Louisiana Code of
Criminal Procedure Article 929.
IT IS FURTHER ORDERED that the Clerk of Court for the
Parish of St. Tammany give notice of this dismissal to the
petitioner, petitioner’s custodian, and the District Attorney for
the Parish of St. Tammany.
Covington, Louisiana this 29th day of August, 2012.
PETER J. GARCIA “s/”
Judge Division “D”

3b
TWENTY-SECOND JUDICIAL DISTRICT COURT FOR
THE PARISH OF ST. TAMMANY STATE OF LOUISIANA
NO. 487906

DIVISION “D”

STATE’S RESPONSE TO JESSIE SHELTON’S
MOTION TO RECUSE DIVISION D
MAY IT PLEASE THE COURT:
Jessie Shelton is a sex offender who pleaded guilty to
aggravated incest in 2010 under case number 487906 in
Division “D” of the 22nd Judicial District Court. This matter
is before Division “H” of the 22nd Judicial District Court for
the sole reason that Shelton has filed a “Motion to Recuse
Division D”. this case is next docketed for May 3, 2017.
The only question before the Court is whether there exists
valid grounds to recuse the Judge in Division D, The
Honorable Peter Garcia.
The grounds for recusing a judge are set forth in Article
671 of the Code of Criminal Procedures, as follows:
In a criminal case a judge of any court,
trial, or appellate, shall be recused when
he:
(1) Is biased, prejudiced, or personally
interest in the cause to such an
extent that he would be unable to conduct
a fair and impartial trial;
(2) Is the spouse of the accused, of the party injured, of
an attorney employed in the
case, or of the district attorney; or is

4b
related to the accused or the party injured, or to the
spouse of the accused or party injured, within the
fourth degree; or
is related to an attorney employed in the cause or to
the district attorney, or to the
spouse of either, within the second degree;
1

(3) Has been employed or consulted as an
attorney in the cause, or has been associated with an
attorney during the
latter’s employment in the cause;
(4) Is a witness in the cause;
(5) Has performed a judicial act in the case in another
court; or
(6) Would be unable, for any reason, to conduct a fair and
impartial trial.

La. C.Cr.P. art. 67 (A) .
(1) Is a witness in the cause;
(2) Has performed a judicial act in the case
in the case in another court; or
Upon review of the allegations contained in the motion to
recuse, the State respectfully submits that Shelton has failed
to demonstrate-or-even allege-that there exist valid grounds
for recusal of Judge Garcia.

The filing of a motion to recuse has specific legal consequences: the judge who
Jessie Shelton has moved to recuse no longer has the authority to act, and motion to
recuse is to be “referred to another judge of the court through a random process as
provided by the rules of the court “La. C.Cr.P arts. 673; 675(B); State v. Price 274
So.2d 194, 197 (La. 1973).
11

5b
The State therefore respectfully prays that the Motion to
Recuse be denied, and that the matter be returned to Division D
for resolution of the merits of the petitioner’s Application for
Post-Conviction Relief.
Respectfully submitted,
Matthew Caplan LSBA#31650 “s/”
Assistant District Attorney
CERTIFICATE OF SERVICE
I hereby certify that I have served a copy of the foregoing
pleading to the petitioner through his attorney of record on this
the 28th day of April, 2017, by sending it United States Postal
Service first class mail, addressed as follows:
Robert Stamps
1226 Antonine St.
New Orleans, LA 70115

Matthew Caplan, LSBA#3160 “s/”
Assistant District Attorney

6b
TWENTY-SECOND JUDICIAL DISTRICT COURT
FOR THE PARISH OF ST TAMMANY
STATE OF LOUISIANA
NO. 487906

DIVISION D
STATE OF LOUISIANA
VS.
JESSIE SHELTON
STATE’S RESPONSE TO JESSIE SHETON’S
APPLICATION

Jessie Shelton is a sex offender who plead guilty to
aggravated incest in 2010. He filed an application for postconviction relief on November 16, 2016 is time-barred and
without merit, and that it can and should be dismissed
summarily pursuant to Article 929(A) of the Code of Criminal
Procedure.
PERTINENT FACTS AND PROCEDURAL HISTORY
The petitioner, Jessie Shelton, pleaded guilty as charged to
aggravated incest (La. R.S. 14:78.1) on August 5, 2010. He did
not appeal his conviction or sentence. His conviction and
sentence became final upon the expiration of time for seeking
appellate review, which occurred 30 days later, on September 4,
2010. See La.C.Cr.P. art 914(B).
PETITIONERS CLAIMS
The petitioner claims that there has been a “violation of
allotment rules”.

7b
RESPONSE TO THE PETITIONER’S CLAIMS
I.

The post-conviction relief application untimely.

Article 930.8(A) of the Code of Criminal Procedure provides a
time limitation for the filing of post-conviction relief applications
as follows:
No application for post-conviction relief, including applications
which seek an out-of-time appeal, shall be considered if it is filed
more than two years after the judgement of conviction and
sentence has become final under the provisions of Article 914 or
922, unless any of the following apply;
(1) The application alleges, and the petitioner proves or the
state admits, that the facts upon which the claim is
predicated were not known to the petitioner or his prior
attorneys…
(2) The claim asserted in the petition is based upon a final
ruling of an appellate court establishing a theretofore
unknown interpretation of the constitutional law and
petitioner establishes that this interpretation is retroactively
applicable to his case, and the petition is filed within one
year of the finality of such ruling.
(3) The application would already be barred by the provisions
of this Article, but the application is filed on or before
October 1, 2001, and the date on which the application was
filed is within three years after the judgement of conviction
and sentence has become final.
(4) The person asserting the claim has been sentenced to death.
The exception created by Paragraph (A)(1) does not apply
because the petitioner does allege the existence of newlydiscovered facts. The exception created by Paragraph (A)(2)
does not apply because the petitioner’s claim is not “based upon
a final ruling of an appellate court establishing a theretofore
unknown interpretation of constitutional law.” The exception
created by Paragraph (A)(3) does not apply because the

8b
petitioner’s application was not filed “on or before October 1,
2001.” The exception created Paragraph (A)(4) does not apply
because the petitioner was not sentenced to death.
Shelton’s conviction became final in 2010. His application was
filed in 2016. The application was filed more than two years
after the judgement of conviction and sentence became final.
None of the exceptions to the two-year time bar apply. The
application is untimely.
II.

The Petitioner’s Claim is waived by the entry of Guilty
Plea

Shelton entered an unconditional guilty plea. Such a plea
“waives all non-jurisdictional defects in the proceedings prior to
the plea”. State v. Crosby, 338 So.2d 584, 586 (La. 1976). The
difference between “jurisdictional” and “non-jurisdictional”
defects has been explained by the Louisiana Supreme Court as
follows: “jurisdictional” defects are “those which”, even
conceding the accused’s factual guilt, do not permit his
conviction of the offense charged”. Id. At 588.
The Louisiana First Circuit Court of Appeal has held that a
conviction may stand even in the face of an allotment error. See,
e.g., State v. Jones, 600 So.2d 875, 879 (La. App. 1 Cir. 1992)
(allotment error was harmless); State v. Claxton, 603 So.2d 247,
249-250 (La. App. 1 Cir. 1992) (allotment error was harmless);
State v. Weisinger, 618 So.2d 293, 933 (La. App. 1 Cir. 1993)
(error not preserved for review; defendant did not object to the
method of allotment prior to trial).
Because the First Circuit Court of Appeal has affirmed
convictions even in the presence of an allotment error, any error
in the allotment-if one occurred-is not the type of error “which,
even conceding the accused’s factual guilt, do(es) not permit his
conviction of the offense charged”. Crosby supra. Accordingly,
the alleged error is not “jurisdictional”.
Because non-jurisdictional errors are waived by the entry of
an unconditional plea of guilty, and because Jessie Shelton
entered an unconditional plea of guilty, the petitioner is not
entitled to relief: this claim was waived by the entry of the guilty
plea.

9b
CONCLUSION AND PRAYER
Shelton’s claim is time-barred and without merit. The State
therefore respectfully prays that his application for postconviction relief be DENIED.

Matthew Caplan, LSBA #31650 “s/”
Assistant District Attorney
CERTIFICATE OF SERVICE
I hereby certify that I have served a copy of the foregoing
pleading to the petitioner through his attorney of record on this
28th day of April, 2017, by sending it by United States Postal
Service first-class mail, addressed as follows:
Robert Stamps
1226 Antonine
New Orleans, LA 70115

Matthew Caplan, LSBA #31650 “s/”
Assistant District Attorney

10c
STATE OF LOUISIANA
COURT OF APPEAL, FIRST CIRCUIT
State of Louisiana

No. 2017- KW 0749

Verse
Jessie Eugene Shelton

In Re:

Jessie Eugene Shelton, applying for supervisory
writs, 22nd Judicial District Court, Parish of St.
Tammany, No. 487, 906.

Before:

Whipple, C.J., Theriot and Chutz, JJ.

Writ Denied. A motion to recuse the judge was not the
proper procedural device to challenge the allotment of this
case on due process grounds. Criminal cases in St. Tammany
Parish are not allotted based upon the date of arrest. At the
Motion hearing, the deputy criminal court clerk indicated
that when the date of offense occurs over a period of time or
is uncertain, the case is randomly allotted by the clerk
without the involvement of the district attorney. This type
of random allotment was found to be constitutional by the
Louisiana Supreme Court. See State v. Nunez, 2015-1473
(La. 1/27/16, 187 So. 3d 964, 972. Accordingly, the district
Court did not err by denying the motion to recuse or relator’s
request for re-allotment.
MRT
WRC
VGW
COURT OF APPEAL, FIRST CIRCUIT
Tiffany S. Pucheu “s/”
DEPUTY CLERK OF COURT
FOR THE COURT

11d
THR SUPREME COURT OF THE
STATE OF LOUISIANA
STATE OF LOUISIANA

NO. 2017-KP-1389

VS
JESSIE EUGENE SHELTON

IN RE: Jessie Eugene Shelton; - Defendant; Applying For
Supervisory and/or Remedial Writs, Parish of St. Tammany,
22nd Judicial District Court Div. H, No. 487906; to the
Court of Appeal, First Circuit, No. 2017- KW 0749;
December 17, 2018
Denied.
JTG
BJJ
JLW
GGG
MRC
JDH
SJC

Supreme Court of Louisiana
December 17, 2018
Theresa McCarthy “s/”
Deputy Clerk of Court
For the Court

12e
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
JESSIE EUGENE SHELTON
PETITIONER

CIVIL ACTION
NO. 19-cv-0470

VERSUS
SECTION “E” (2)
ROBERT TANNER, WARDEN
RESPONDENT
REPORT AND RECOMMENDATION
This matter was referred to a United States Magistrate
Judge to conduct hearings, including an evidentiary hearing, if
necessary, and to submit proposed findings and
recommendations for disposition pursuant to 28 U.S.C. 636
(b)(1)(B) and (C) and, as applicable, Rule 8(b) of the Rules
Governing Section 2254 cases. Upon review of the entire record,
I have determined that a federal evidentiary hearing is
unnecessary. See 28 U.S.C. 2254(e)(2).1
RESPONSE TO PETITION FOR HABEAS CORPUS RELIEF
OVERVIEW
Jessie Eugene Shelton is a state prisoner incarcerated at the
Rayburn Correctional Center in Angie, LA. He is serving a
twenty year sentence as a result of his 2010 conviction for
aggravated incest (La. R.S. 14:78.1). For the following reasons, I
recommend that the instant petition for habeas corpus relief be
DISMISSED WITH PREJUDICE as time barred.

1

Under 28 U.S.C. 2254(e)(2), whether to hold an evidentiary hearing is a statutorily mandated
determination. Section 2254(e)(2) authorizes the district court to hold an evidentiary hearing
only when the petitioner has shown either that the claim relies on a new, retroactive rule of
constitutional law that was previously unavailable, 28 U.S.C. 2254(e)(2)(A)(i), or the claim relies
on a factual basis that could not have been previously discovered by exercise of due diligence,
28U.S.C. 2254(e)(2)(A)(ii); and the facts underlying the claim show by clear and convincing
evidence that, but for the constitutional error, no reasonable jury would have convicted the
petitioner. 28 U.S.C. 2254(e)(2)(B).

13e
I.

FACTUAL BACKGROUND
The petitioner, Jessie Eugene Shelton, appearing through
counsel, is a convicted inmate incarcerated in the B.B. “Sixty”
Rayburn Correctional Center in Angie, LA. On May 10,
2010, Shelton was charged by bill of information in St.
Tammany Parish with aggravated incest and oral sexual
battery upon his daughter. On May 20, 2010, Shelton entered
a not guilty plea to the charges.
At an August 5, 2010 hearing, the state trial court granted
Shelton’s motion to quash the oral sexual battery charge. At
the same hearing, Shelton withdrew his former plea to enter
a guilty plea to aggravated incest. On August 31, 2010 the
state trial court sentenced Shelton to 20 years in prison at
hard labor, with one year suspended, followed by five years of
supervised probation.
Shelton’s conviction became final 30 days later, on
September 30, 2010, when he did not seek reconsideration of
the sentence or pursue a direct appeal. Roberts v Cockrell,
319 F3d. 690, 694-95 (5th Cir. 2003) (under federal habeas
law, a conviction is final when the state defendant does not
timely proceed to the next available step in the state appeal
process); see Cousin v. Lensing, 310 F3d. 843, 845, (5th Cir.
2002) (petitioner’s guilty pleas became final at the end of the
period for seeking leave to file a notice of appeal under La.
Code Crim. P. art 914). 2
More that 22 months later, on August 2, 2012, Shelton
signed and submitted to the state trial court an application
for post-conviction relief asserting the following: (1) He was
denied the right to direct appeal because the state trial court
did not advise him of the right after sentencing. (2) The plea
agreement was an absolute nullity because the sentencing
was contingent on the victim impact statement. (3) The guilty
plea was not entered knowingly, intelligently or voluntarily.

The Cousin court recognized that failure to move timely for appeal under La. Code
Crim. P. art. 914 renders the conviction and sentence final at the expiration of that
period, citing State v Counterman, 475 So.2d 336, 338 9La 1985). At the time of
Cousin, La. Code Crim P. Art. 914 required a criminal defendant to move for leave to
appeal within five (5) days of the order or judgement being appealed or of a ruling on
a timely motion to reconsider a sentence. Article 914 was later amended by La. Acts
2003, No. 949, 1 to provide thirty (30) days for filing of the notice of appeal.
2

14e
On August 29, 2012, the state trial court denied relief,
finding no merit in the claims. Shelton did not seek review of
this ruling.
More than four years later, on October 15, 2016, Shelton
signed and submitted to the state trial court a second
application for post-conviction relief asserting the following:
(1) He was denied due process in the allotment of his case. (2)
The court lacked jurisdiction because the crime was
committed in Washington Parish. (3) Prosecutorial
misconduct was involved in the allotment of his case and the
choice of jurisdiction. (4) His counsel provided ineffective
assistance of counsel because they did not challenge the
allotment, jurisdiction of the state trial court or the
prosecutorial misconduct.
That same day and during the next few months, Shelton’s
retained counsel filed several motions for recusal of the trial
judge (Division D), recusal of the judge (Division H) presiding
over the motion to recuse the trial judge and re-allotment of
the proceedings to the judge in Division I. The motions and
Shelton’s post-conviction application alleged that his original
criminal charges were allotted to Division I and by
manipulation of the prosecutor, and because of his
subsequent arrest on a different rape charge, the entire
matter was moved to Division D, where Shelton eventually
entered his guilty plea. He urges that this denied him due
process and the matter should be renewed before Division I.
On April 5, 2017, the state judge in Division H heard
argument on the motion to recuse and re-allot and ordered
additional briefing, including the State’s responses to the
motions and the post-conviction application. At a May 3,
2017, hearing, the court denied the motions to recuse and reallot, because allotment to Division D for trial was proper
under the rules of the court. The record and independent
research of staff of the undersigned magistrate judge indicate
that the state trial court has not yet ruled on the Shelton’s
second application for post-conviction relief.
On July 25, 2017, The Louisiana First Circuit denied
Shelton’s counsel-filed writ application seeking review of the

15e
denial of the motions to recuse and re-allot. On December 17,
2018, The Louisiana Supreme Court denied the related writ
application. 4
II.

FEDERAL HABEAS PETITION
On January 30, 2019 the clerk filed Shelton’s federal
habeas corpus petition in which he asserts the following
grounds for relief: (1) He was denied due process in the
allotment process. (2) The state trial court in St. Tammany
Parish lacked jurisdiction over his case, because the alleged
crime in Washington Parish. (3) Ineffective assistance of
counsel when his counsel failed to challenge the allotment
and jurisdiction of the court. (4) There was prosecutorial
misconduct during the allotment process, and he received
ineffective assistance when his counsel did not challenge it.
On March 6, 2019, the State filed a response in opposition
to Shelton’s federal petition, asserting that the petition is
time-barred and reserving its right to assert lack of
exhaustion and other defense and/or address the merits of
Shelton’s claims, if necessary.
III. GENERAL STANDARDS OF REVIEW
The antiterrorism and Effective Death Penalty Act of 1996
(“AEDPA”). Pub. L. No. 104-132, 110 Stat. 1214,
Comprehensively revised federal habeas corpus legislation,
including 28 U.S.C. 2254. The AEDPA went into effect on
April 24, 19965 and applies to habeas petitions filed after that
date. Flanagan v Johnson, 154 F.3d 196, 198 (5th Cir. 1998)
(citing Lindh v Murphy, 521 U.S. 320 (1997). The AEDPA

State v Shelton No. 2017-KW-0749, 2017 WL 3165978 at *1 (La. App. 1st Cir. Jul.
25, 2017); St. Rec. Vol. 3 of 4, 1st Cir. Order, 2017-KW-0749, 7/25/17; 1st Cir. Writ
Application, 2017-KW-0749, 5/26/17.
5
The AEDPA, which was signed into law on that date, does not specify an effective
date for its non-capital habeas corpus amendments. Absent legislative intent to the
contrary, statutes become effective at the moment they are signed into law. United
States v Sherrod, 964 F.2d 1501, 1505 (5th Cir. 1992).
4

16e
Therefore, applies to this petition deemed filed on January
14, 2019, when it was signed by Shelton, and filed on
January 30, 2019, when the filing fee was paid by his
counsel.6
The threshold questions in habeas review under the
amended statute are whether the petition is timely and
whether petitioner’s claims were adjudicated on the merits in
state court; i.e., the petitioner must have exhausted state
court remedies and must not be in “procedural default” on a
claim. Nobles v Johnson, 127 F. 3d 409, 419-20 (5th Cir.
1997) (Citing 28 U.S.C. 2254(b), (c).
The State correctly asserts that Shelton’s federal petition
was not timely filed. For the following reasons, Shelton’s
petition must be dismissed with prejudice because it is
clearly time-barred.
IV.
STATUTE OF LIMITATIONS
The ADEPA requires that a Section 2254 petition must
ordinarily be filed within one year of the date of conviction
Shelton’s petition was filed under the signature of retained counsel but received by
mail in an envelope bearing Shelton’s prison return address in Angie, Louisiana.
Under the prison mailbox rule, the date when prison officials receive a pleading from
the inmate for delivery to the court is considered the time of filing for limitation
purposes. Houston v Lack, 487 U.S. 266 (1988); Coleman v Johnson, 184 F3d 398,
401 (5th Cir. 1999); Spotville v Cain, 149 F3d 374, 378 (5th Cir. 1998). The rule,
however, applies only if an inmate relies on the prison mail system for mailing items
to a court. Rule 3(d), Rules Governing Section 2254 Cases; Dison v Whitley, 20 F3d
185, 187 (5th Cir. 1994) (“use of an unknown agent does not trigger the Houston
exception…limited to filings with prison officials, over whom a prisoner has no
control”); Driscoll v Thaler, No. 12-CV-330, 2012 WL 3656296 at *1 n.2 (N.D. Tex.
Aug. 27, 2012) (mailbox rule not applicable if pleading sent to third party to file with
court); Llovera v. Florida No. 13-859, 2013 WL 5468256, at *3n.2 (D.S.C. Sep. 30,
2013) (mailbox rule not applicable if “there” was nothing on the envelope to indicate
mailing from a place of confinement.”). Shelton’s envelope bears no indication it was
mailed through the prison mail system. The envelope has no prison stamp noting
that is contains inmate mail and no prison processing/receipt stamp. Instead, the
envelope was sent certified, priority mail from Mandeville, Louisiana, not Angie,
Louisiana where the prison is located. Rec. Doc. No. 3-1, o. 10. Nevertheless,
affording Shelton every benefit, I will consider the prison mailbox rule to apply and
deem Shelton’s petition filed on January 14, 2019, when he (and his counsel) signed
the form petition. This is the earliest date appearing in the record on which it could
have been given to prison officials for mailing to a federal court. Payment of the filing
fee does not alter the application of the federal mailbox rule. Cousin, 310 F.3d at 847.
6

17e
being final.7 Duncan v. Walker, 533 U.S. 167, 179-80 (2001).
Shelton’s conviction was final on September 20, 2010, when
he did not seek review of sentence or guilty plea. Applying
Section 2244 literally, Shelton had one year from finality of
his conviction, until September 30, 2011, to file his federal
habeas corpus petition, which he did not do. His petition
must be dismissed as untimely, unless the one-year statute of
limitations was interrupted or otherwise tolled on either of
the following two ways recognized in the applicable law.
First, the United States Supreme court has held that
AEDPA’s one-year statute of limitations period in Section
2244(d)(1) may be equitably tolled only when the petitioner
has pursued his rights diligently and rare or extraordinary
circumstances exist which prevented timely filing. Pace v
DiGuglielmo, 544 U.S. 408, 418 (2005); Fisher v. Johnson,
174 F3d. 710, 713 (5th Cir. 1999), cert. denied, 531 U.S. 1164
(2001); cert. denied CantuTzin v Johnson, 162 F.3d 295, 299,
(5th Cir. 1998); Davis v Johnson, 158 F.3d 806, 810 (5th Cir.

The statute of limitations provision of the AEDPA in 28 U.S.C. 2244(d) provides for
other triggers which do not apply here:
(1) A 1-year period of limitation shall apply to an application for writ of
habeas corpus by a person in custody pursuant to the judgement of a
State court. The limitation period shall run from the latest of—
A. The date on which the judgement became final by the conclusion of direct
review or the expiration of the time for seeking such review;
B. The date on which the impediment to filing an application created by
State action in violation of the Constitution or laws of the United States
is removed, if the applicant was prevented from filing by such State
actions;
C. The date on which the constitutional right asserted was initially
recognized by the Supreme Court, if the right has been newly recognized
by the Supreme Court and made retroactively applicable to case on
collateral review; or
D. The date on which the factual predicate of the claim or claims presented
could have been discovered through the exercise of due diligence.
(2) The time during which a properly filed application for State postconviction or other collateral review with respect to the pertinent
judgement or claim is pending shall not be counted toward any period of
limitation under this subsection.
7

1999), cert. denied, 526 U.S. 1074 (1999). Equitable tolling is
warranted only in situations in which the petitioner was
actively misled or is prevented in some extraordinary way
18e
from asserting his rights. Pace, 544 U.S. at 418-19; Cousin,
310 F3d. at 848.
Shelton has asserted no reason, and I can find none, that
might constitute rare or exceptional circumstances why the
one-year statute of limitations period should be considered
equitably tolled in his case. The record does not establish
circumstances that might fit the restrictive boundaries of
“exceptional circumstances” described in binding precedent to
warrant equitable tolling in this case. See Holland v Florida,
560 U.S. 631, 651-54 (2010) (equitable tolling would be
warranted where attorney was more than negligent when he
failed to satisfy professional standards of care by ignoring the
client’s requests timely to file a federal petition and in failing
to communicate with the client over a period of years in spite
of the client’s letters); Hardy v Quarterman, 577 F.3d 596,
599-600 (5th Cir. 2009) (equitable tolling was warranted
where petitioner suffered a significant state-created delay
when, for nearly one year, the state appeals court failed in its
duty under Texas law to inform him that his state habeas
petition had been denied, petitioner diligently pursued
federal habeas relief, and he persistently inquired to the
court); United States v Wynn, 292 F.3d 226 (5th Cir. 2002)
(tolling warranted when defendant was deceived by attorney
into believing that a timely motion to vacate was filed);
Coleman v. Johnson, 184, F3d 398, 402 (5th Cir. 1999), cert.
denied, 529 U.S. 1057 (2000) (“A garden variety claim of
excusable neglect does not support equitable tolling”). Fisher,
174 F.3d 715 (tolling not justified during petitioner’s 17-day
stay in psychiatric ward, during while he was confined,
medicated, separated from his glasses and this rendered
legally blind, and denied meaningful access to the courts);
Cantu-Tzin, 162 F.3d at 3—(State’s alleged failure to appoint
competent habeas counsel did not justify tolling); Davis, 158
F.3d at 808 n.2 (assuming without deciding that equitable
tolling was warranted when federal district court three times
extended petitioner’s deadline to file habeas corpus petition
beyond expiration of AEDPA grace period).

In addition to equitable tolling, the AEDPA itself provides
for interruption of the one-year limitations period, in stating
that “(t)he time during which a properly filed application for
State post-conviction or other collateral review with respect
19e
to the pertinent judgement or claim is pending shall not be
counted toward any period of limitation under this
subsection.” 28 U.S.C. 2244(d)(2) (emphasis added). By its
plain language, this provision does not create a new, full, oneyear term within which a federal habeas petition may be filed
at the conclusion of state court post-conviction proceedings.
Flanagan, 154 F.3d at 199 n.1. The Supreme Court has
clearly described this provision as a tolling statute. Duncan,
533 U.S. at 175-78.
The decision of the Fifth Circuit and other federal courts
have held that, because this statute is a tolling provision, the
time during which state court post-conviction proceedings are
pending must merely be subtracted from the one-year
limitations period:
(Section) 2244(d)(2) provides that the period
during which a properly filed state habeas
application is pending must be excluded when
calculating the one(-)year period. Under the
plain language of the statute, any time that
passed between the time that (petitioner’s)
conviction became final and the time that his
state application for habeas corpus was properly
filed must be counted against the one(-)year
period of limitation.
Flanagan, 154 F.3d at 199 n.1; accord Bisbane v. Beshears,
161 F.3d 1, 1998 WL 609926, at *1 (4th Cir. Aug. 27,
1998)(Table, Text in Westlaw); Gray v Waters, 26 F. Supp. 2d
771, 771-72 (D. Md. 1998).
For post-conviction application to be considered “properly
filed” within the meaning of Section 2244(d)(2), the applicant
must “conform with a state’s applicable procedural filing
requirements”, such as timeliness and location of filing.
Pace, 544 U.S. at 414 (“When a post-conviction application is
untimely under state law, ‘that is the end of the matter’ for
purposes of 2244(d)(2)”). Williams v Cain, 217 F.3d 303, 306307 n.4 (5th Cir. 2000) (quoting Villegas v Johnson, 184 F.3d
467, 469 (5th Cir. 1999); Smith v Ward, 209 F.3d 383-85 (5th

Cir. 2000). The timeliness consideration in Louisiana, for
purposes of the AEDPA, requires application of a prison
mailbox rule to state pleadings filed by a prisoner. Carey v.
20e

Saffold, 536 U.S. 214, 219-20 (2002); Williams, 217 F. 3d at
310 (a matter is “pending” for Section 2244(d)(2) purposes
until “further appellate review (is) unavailable under
[Louisiana’s] procedures”).
The phrase “other collateral review” in the statute refers
to state court proceedings challenging the pertinent
judgement subsequently challenged in the federal habeas
petition. Dillworth v Johnson, 215 F.3d.497, 501 (5th Cir.
2000) (state habeas petition challenging prior conviction in
one county was other collateral review even though filed as a
challenge to a second conviction in a different county); Nara v
Frank, No. 99-3364, 2001 WL 995164, at *5 (3rd Cir. Aug. 30,
2001) (motion to withdraw a guilty plea is “other collateral
review”). A “pertinent judgement claim” requires that the
state filings for which tolling is sought must have challenged
the same conviction being challenged in the federal habeas
corpus petition and must have addressed the same
substantive claims now being raised in federal habeas corpus
petition. Godfrey v. Dretke, 396 F.3d 681, 686-88 (5th Cir.
2005).
In this case, the one-year AEDPA statute of limitations
began to run on October 1, 2010, the day after Shelton’s
conviction was final under federal law. The period continued
to run uninterrupted for one year, until September 30, 2011,
when it expired. Shelton had no properly filed application for
state post-conviction relief or other collateral review during
that time period that might have tolled the AEDPA one-year
statute of limitations.
Shelton’s first state court application for post-conviction
relief was filed on August 2, 2012, which was more than 10
months after the AEDPA one-year filing period expired on
September 30, 2011. In addition, Shelton allowed a period of
more than four years to pass between denial of his first state
court application on August 29, 2012, and the filing of his
second application for post-conviction relief on October 15,
2016. Shelton is not entitled to tolling for these state filings
made after expiration of the AEDPA limitations period. See

Scott v Johnson, 227 F.3d 260, 263 (5th Cir. 2000) (state
application for habeas corpus relief filed after limitations
period expired does not toll the limitations period);
Higginbotham v. King, 529 F. App’s 313, 314 (5th Cir. 2015);
see also, Lookingbill v Cockrell, 293 F.3d 256, 264 (5th Cir.
21e
2002) (missing the AEDPA deadline by even one day renders
a federal petition untimely).
Shelton’s federal petition was filed under the mailbox rule
(and with counsel) on January 14, 2019, which was more
than seven years and three months after the AEDPA oneyear statute of limitations expired on September 30, 2011.
His federal petition was not timely filed and must be
dismissed with prejudice for that reason. 8
RECOMMENDATION
For the foregoing reasons, it is RECOMMENDED that
Jessie Eugene Shelton’s petition for issuance of a writ of

Shelton has exerted no excuse to avoid the expiration of the limitations period. He
has not asserted his actual innocence and has brought no new, reliable evidence to
meet the high burden set forth in McQuiggin v. Perkins, 569 U.S. 383 (2013).
Furthermore, the holding in Martinez v. Ryan, 566 U.S. 1 (2-12), is not relevant to
this timeliness discussion. In Martinez, the Supreme Court held that a procedural
bar imposed by state courts “will not bar a federal habeas court from hearing a
substantial claim of ineffective assistance at trial if, in the [state’s] initial review
collateral proceeding, there was no counsel or counsel in that proceeding was
ineffective”. Trevino v Thaler, 569 U.S. 413, (2013) (quoting Martinez, 566 U.S. at
13). First, the state courts have not barred review of Shelton’s ineffective assistance
of counsel claims, which are still pending resolution in the state trial court. Second,
this dismissal is based not on a state procedural bar but on Shelton’s failure to timely
file his federal habeas petition. The Martinez and Trevino decisions do not address or
excuse untimely filing of a federal habeas petition. See, Arthur v. Thomas, 739 F.3d
611 631, (11th Cir. 2014) (“Thus, we also hold that the reasoning of the Martinez rule
does not apply to AEDPA’s limitations period in 2254 cases or any potential tolling of
that period”); Smith v Rogers, No. 14-0482, 2014 WL 2972884, at *1 (W.D. La. Jul. 2,
2014); Falls v Cain, No 13-5091, 2014 WL 2702380, at *3(E.D. La. Jun. 13, 2014)
(Order adopting Report and Recommendation). Martinez and Trevino also are not
new rules of constitutional law made retroactive on collateral review to start a new
one-year statute of limitations period under the AEDPA. See in re Paredes, 587
F.App’x 805, 813(5th Cir. Oct. 25, 2014)(“…the Supreme Court has not made either
Martinez or Trevino retroactive to cases on collateral review, within the meaning of
28 U.S.C. 2244.”); Adams v. Thaler, 679 F.3d 312, 322 n.6(5th Cir. 2012). Neither
Martinez nor Trevino provide equitable or statutory relief from Shelton’s untimely
filing.
8

habeas corpus under 28 U.S.C. 2254 be DISMISSED WITH
PREJUDICE as time-barred.
A party’s failure to file written objections to the proposed
findings, conclusions, and recommendation in a magistrate
judge’s report and recommendation within fourteen days
22e
after being served with a copy shall bar that party, except
upon grounds of plain error, from attacking on appeal the
Un-objected-to proposed factual findings and legal
conclusions accepted by the district court, provided that the
party has been served with notice that such consequences
will result
from a failure to object. Douglas v. United Servs. Auto. Ass’n.
79 F.3d 1415, 1430 (5th Cir. 1996) (en-blanc) (citing 28 U.S.C.
636(b)(1)0. 9
New Orleans, LA this 12th day of June, 2019.
JOSEPH C. WILKINSON, JR. “s/”
UNITED STATES MAGISTRATE JUDGE

Douglas referenced the previously applicable ten-day period for the filing of
objections. Effective December 1, 2009, 28 U.S.C. 636(b)(1) was amended to extend
the period to fourteen days.
9

23f
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
JESSIE EUGENE SHELTON
VERSUS
ROBERT TANNER, WARDEN
RAYBURN CORRECTIONAL
CENTER

CIVIL ACTION
NO. 19-470
SECTION “E”(2)

ORDER AND REASONS
Before the Court is a Report and Recommendation issued
by Magistrate Judge Wilkinson, Jr. recommending Petitioner
Jessie Eugene Shelton’s petition for federal habeas corpus
relief be dismissed with prejudice as time barred. Petitioner
timely objected to the Magistrate Judge’s Report and
Recommendation. For the reasons that follow, the Court
ADOPTS the Report and Recommendation as its own, and
hereby DENIES Petitioner’s application for relief.
BACKGROUND
Petitioner is an inmate currently incarcerated in the B.B.
“Sixty” Rayburn Correctional Center in Angie, LA . On May
10, 2010, Petitioner was charged by bill of information in St.
Tammany Parish with aggravated incest and oral sexual
battery.1 On May 20, 2010, Petitioner entered a not guilty
Petitioner challenges “The magistrate in his report, states that on May 10, 2010 the
defendant was charged with aggravated incest and oral sexual battery on his
daughter. That statement is NOT true. In count 1, Defendant was charged with R.S.
14:78.1, with the victim being 14 years old. In count 2, he was charged with oral
sexual battery on another person in 1983. R. Doc. 11 at 2-3 (emphasis original). The
1

plea to the charges. On August 5, 2010, the state trial court
granted Petitioner’s motion to quash the bill of information
on the oral sexual battery count. On the same date,
Petitioner withdrew his former plea to enter a guilty plea to
24f
aggravated incest. On August 31, 2010, the state trial court
sentenced Petitioner to twenty years in prison at hard labor,
with one year suspended, followed by five years of supervised
probation.
On August 2, 2012, Petitioner signed and submitted to the
state trial court an application for post-conviction relief. On
August 29, 2012, the state trial court denied relief, finding no
merit in the claims. Petitioner did not seek review of this
ruling. On October 15, 2016, Petitioner signed and submitted
to the state trial court a second application for postconviction relief. To the Court’s knowledge, the state trial
court has not yet ruled on Petitioner’s second application for
post-conviction relief. Also on October 15, 2016 and over the
course of the following few months, Petitioner’s counsel filed
several motions for recusal of the trial judge (Division D),
recusal of the judge (Division H) presiding over the motion to
recuse the trial judge and re-allotment of the proceedings to
the judge in Division I. On May 3, 2017, the state judge in
Division H, denied the motions to recuse and re-allot. On
July 25, 2017, the Louisiana First Circuit denied Petitioner’s
writ application seeking review of the denial of motions to
recuse and re-allot. On December 17, 2018, the Louisiana
Supreme Court denied Petitioner’s writ application.
On January 30, 2019, Petitioner filed the instant petition
for habeas corpus relief. Petitioner seeks federal habeas
corpus relief on the following grounds: (1) he was denied due
process in the allotment process; (2) the state trial court in
St. Tammany Parish lacked jurisdiction over his case,
because the alleged crime occurred in Washington Parish; (3)
he was denied effective assistance of counsel when his
counsel failed to challenge the allotment and jurisdiction of
the court; (4) there was prosecutorial misconduct during the
allotment process, and he received ineffective assistance
court notes Petitioner is correct. However, the identity of the victims involved in
Count 1 and Count 2 has no bearing on the magistrate judge’s finding that
Petitioner’s federal habeas petition was filed untimely.

when his counsel did not challenge it. On March 6, 2019, the
Government filed an opposition to Petitioner’s federal
petition. In his Report Recommendation, Magistrate Judge
Wilkinson concluded Petitioner’s claims should be dismissed
with prejudice as time-barred. Petitioner filed a timely
objection on June 24, 2019 and a memorandum in support
thereof o June 27, 2019.

25f
ANALYSIS
I.

STANDARD OF REVIEW

In reviewing the magistrate judge’s Report and
Recommendations, the Court must conduct a de novo review
of any of the magistrate judge’s conclusions to which a party
has specifically objected. As to the portions of the report that
are not objected to, the Court needs only review those
portions to determine whether they are clearly erroneous or
contrary to law.
II.

STATUTE OF LIMITATIONS
The Anti-Terrorism and Effective Death Penalty Act of
1996 (“AEDPA”) provides “[a] 1-year period of limitation shall
apply to an application for a writ of habeas corpus by a
person in custody pursuant to the judgement of a State court.
The limitation period runs from the latest of:
(A) The date on which the judgement became final by the
conclusion of direct review or the expiration of the
time for seeking such review;
(B) The date on which the impediment to filing an
application created by State action in violation of the
Constitution or laws of the United States is removed,
if the applicant was prevented from filing by such
State action;
(C) The date on which the constitutional right asserted
was initially recognized by the Supreme Court, if the
right has been newly recognized by the Supreme

Court and made retroactively applicable to cases on
collateral review; or
(D) The date on which the factual predicate of the claim or
claims presented could have been discovered through
the exercise of due diligence.
The one-year period of limitation is subject to certain
exceptions. First, the AEDPA expressly allows the oneyear limitations period to be interrupted in the following
26f
way: “[t]he time during which a properly filed application
for State post-conviction or other collateral review with
respect to the pertinent judgement or claim is pending
shall not be counted toward any period of limitation under
this subsection “. Second, the one-year period of limitation
may be equitably tolled in extraordinary circumstances.
Third, a plea of actual innocence can overcome the
AEDPA’s one-year limitations for filing a habeas petition.
Magistrate Judge Wilkinson recommended this Court
dismiss Petitioner’s petition as untimely because
Petitioner failed to file his federal habeas petition within
the one-year statute of limitations period.
This Court agrees with the magistrate judge’s
recommendation.
A. ONE YEAR LIMITATION PERIOD
When a petitioner does not appeal or timely seek
reconsideration, the date on which a conviction becomes final
is at the end of the period for seeking leave to file a notice of
appeal under La. Code Crim. P. art. 914. La. Code Crim. P.
art. 914 requires a motion for an appeal be made no later
than “thirty days after the rendition of the judgement or
ruling from which the appeal is taken.” In this case,
Petitioner did not seek reconsideration of his sentence
imposed on August 31, 2010 or purse direct appeal, and
therefore his conviction became final on September 30, 2010.
According, Petitioner was required to file his federal habeas
petition by no later than September 30, 2019, his petition

was filed untimely unless the one-year statute of limitations
was interrupted or otherwise tolled.2
B. STATUTORY TOLLING
Section 2244(d)(2) of the AEDPA provides the “time
during which a properly filed application for State post27f
conviction or other collateral review with respect to the
pertinent judgement or claim is pending” shall not be
counted towards the one-year limitation period. Notably, a
state habeas application does not interrupt the one-year
limitation period if it is “not filed until after the period of
limitation has expired.” In this case the AEDPA one-year
limitation period expired September 30, 2011, on year from
the finality of his conviction. Petitioner’s first state court
application for post-conviction relief was filed on August 2,
2012, ten months after the AEDPA one-year period of
limitation expired. Petitioner does not dispute this fact.
Accordingly, no time may be subtracted from the one-year
limitations period under Section 2244(d)(2).
C. EQUITABLE TOLLING
“Generally, a litigant seeking equitable tolling bears the
burden of establishing two elements: (1) that he has been
pursuing his rights diligently, and (2) that some
extraordinary circumstances stood in his way”. In his Report
and Recommendation Magistrate Judge Wilkinson states:
Shelton has asserted no reason, and I can find none, that
might constitute rare or exceptional circumstances why
the one-year statute of limitations period should be
considered equitably tolled in his case. The record does
not establish circumstances that might fit the restrictive
boundaries of “exceptional
circumstances” described in binding precedent to warrant
equitable tolling in this case.
Pace v. DiGuglielmo, 544 U.S. 408, 418 (2005) (citing Irwin v. Dept. of Veterans
Affairs, 498 U.S. 89, 96 (1990)). McQuiggin v. Perkins, 569 U.S. 383, 392 (2013). See
Cousin v. Lansing, 310 F.3d 843, 845 (5th Cir. 2002) “[The petitioner] did not appeal
2

or timely seek reconsideration, so the convictions became final on February 7, 1996”
after the petitioner was convicted in January 1996 (citing La. Code Crim. P. art.
914)); La. C. Cr. P. art 914(B)(1).

In his Memorandum in Opposition to the Findings of
Magistrate Judge, Petitioner argues: “Jessie Shelton did not
have legal counsel after his conviction. His two private
attorney’s did not seek motion to reconsider sentence nor
appeal. They did not do anything for Jessie Shelton between
September 30, 2010 and September 30, 2011.” Although
ineffective assistance of counsel may constitute
“extraordinary circumstances” warranting equitable tolling,
“a garden variety claim of excusable neglect,” such as a
simple ‘miscalculation’ that leads a lawyer to miss a filing
deadline, does not warrant equitable tolling.” Rather, more
than “simple negligence” is required for an attorney’s actions
28f
to be extraordinary. In any event, the record reflects, as
Petitioner states, Petitioner “did not have legal counsel after
his conviction.” Accordingly, ineffective assistance of counsel
in timely filing Petitioner’s federal habeas petition cannot
supply circumstances warranting equitable tolling. The
Court agrees with Magistrate Judge Wilkinson that
Petitioner has asserted no other reason “that might
constitute rare or exceptional circumstances why the oneyear statute of limitations period should be considered
equitably tolled in his case.”
D. ACTUAL INNOCENCE
In this case, Petitioner has not asserted his actual
innocence. However, because the Government argues
Petitioner is not actually innocent, the Court addresses the
effect of a claim of actual innocence on the AEDPA’s one-year
limitations period. “[A]ctual innocence, if provided, serves as
a gateway through which a petitioner may pass whether the
impediment is a procedural bar…or, in this case, expiration
of the statute of limitations.” [T]enable actual-innocence
gateway pleas are rare: ‘[A] petitioner does not meet the
threshold requirement unless he persuades the district court
that, in light of the new evidence, no juror, acting reasonably,
would have voted to find him guilty beyond a reasonable
doubt.” As previously stated, petitioner has not asserted his
actual innocence and had brought no new, reliable evidence
to meet the high burden set forth by the Supreme Court in
McQuiggin. Accordingly, the one-year limitation period
under the AEDPA is not tolled any actual innocence claim.

The Court, having considered the record, the applicable law,
relevant filings, and the magistrate judge’s Report and
Recommendation finds the magistrate judge’s findings of fact
and conclusions of law are correct and hereby approves the
United States Magistrates Judge’s Report and
Recommendation and ADOPTS it as its opinion in this
matter.

29f
CONCLUSION
IT IS ORDERED that Petitioner Jessie Shelton’s petition
against Robert Tanner be and hereby is DISMISSED WITH
PREJUDICE.
New Orleans, Louisiana, this 2nd day of August, 2019.

SUSIE MORGAN “s/”
UNITED STATES DISTRICT JUDGE

30f
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
JESSIE EUGENE SHELTON
VERSUS

CIVIL ACTION
NO. 19-470

ROBERT TANNER, WARDEN
RAYBURN CORRECTIONAL
CENTER

SECTION “E”(2)

JUDGEMENT
The Court having approved the Report and
Recommendation of the United States Magistrate Judge and
having adopted it as its opinion herein; accordingly,
IT IS ORDERED, ADJUDGED, AND DECREED that
there be judgement in favor of Defendant, Robert Tanner,
and against Plaintiff, Jessie Eugene Shelton, dismissing with
prejudice Shelton’s petition for issuance of a writ of habeas
corpus under 28 U.S.C. 2254 a time-barred.
New Orleans, Louisiana, this 2nd day of August, 2019.

SUSIE MORGAN (“s/”

UNITED STATES DISTRICT JUDGE

31f
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
JESSIE EUGENE SHELTON

CIVIL ACTION

VERSUS

NO. 19-470

ROBERT TANNER, WARDEN
RAYBURN CORRECTIONAL
CENTER

SECTION “E”(2)

CERTIFICATE OF APPEALABILITY
Having separately issued a final order in connection with
the captioned habeas corpus proceeding, in which the
detention complained of arises out of process issued by a
state court, the Court, after considering the record and the
requirements of 28 U.S.C. 2253 and Fed. R. App. P. 22(b),
hereby orders that,
_________

a certificate of appealability shall be issued
having found that petitioner has made a
substantial showing of the denial of a
constitutional right related to the following
issue(s).
_________________________________________

___X_____

a certificate of appealability shall not be

Issued for the following reason(s).
Petitioner had failed to make a substantial
showing of the denial of a constitutional
right for the reasons set forth in the
Magistrate Judge’s Report and
Recommendations.
New Orleans, Louisiana, this 2nd day of August, 2019.
SUSIE MORGAN (“s/”)
32g
UNITED STATES DISTRICT JUDGE
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
__________
NO. 19-30664
___________
JESSIE EUGENE SHELTON
Petitioner-Appellant
v.
ROBERT C. TANNER, WARDEN, B.B. RAYBURN CORRECTIONAL
CENTER
Respondent-Appellee
Appeal from the United States District Court
For the Eastern District of Louisiana
ORDER:
Jessie Eugene Shelton, Louisiana Prisoner #574125,
moves the court for a certificate of appealability (COA)
to appeal the district court’s dismissal of his 2254
application as untimely. Shelton first filed the application to challenge his conviction and 20-year sentence
for aggravated incest. He contends that he was denied
due process in the allotment process and that the trial

court lacked jurisdiction over his case. Shelton also
raises ineffective assistance of counsel and prosecutorial
misconduct claims.
To obtain a COA, Shelton must make a “substantial
showing of the denial of a constitutional right”. 28 U.S.C.
2253(c)(2). When the district court’s denial of relief is based
on procedural grounds, as herein, a COA may not issue
unless the prisoner shows that “jurists of reason would
find it debatable whether the petition states a valid claim
of the denial of a constitutional right and that jurists of
reason would find it debatable whether the district court
was correct in its procedural ruling.” Slack v. McDaniel,
529, U.S. 476, 484 (2000).
33g
By failing to challenge the district court’s procedural
ruling, Shelton has abandoned the argument on appeal.
See Brinkmann v. Dallas County Deputy Sheriff Abner,
813, F.2d 744, 748 (5th Cir. 1987); Beasley v. McCotter,
798 F. 2d 116, 118 (5th Cir. 1986). Accordingly, Shelton’s
Request for a COA is DENIED.
See Slack, 529 U.S. at 484.

KURT D. ENGLEHARDT “s/”
UNITED STATES CIRCUIT JUDGE
United States Court of Appeals
Fifth Judicial Circuit Seal
A True Copy Certified order issued June 30, 2020
T.W.C.“s/”
Clerk, U.S. Court of Appeals, fifth Circuit

13
No.
In The

Supreme Court of the United States
JESSIE E. SHELTON,

Petitioner,

v.
ROBERT C. TANNER, WARDEN
B.B. RAYBURN CORRECTIONAL CENTER,

Respondent,

On Petition For Writ Of Certiorari
To The United States Court of Appeals
For The Fifth Circuit

APPENDIX TO THE
PETITION FOR WRIT OF CERTIORARI

ROBERT J. STAMPS

Counsel of Record
Bar # 12393
Supreme Court Bar #74308
1226 Antonine St.
New Orleans, LA 70115
(504)453-4323
bs33pdo@yahoo.com

TABLE OF CONTENTS

page

APPENDIX A (22nd Judicial District Court, St. Tammany
Parish, State of Louisiana opinion filed
August 29, 2012………………………………………………1a
APPENDIX B (22nd Judicial District Court, St. Tammany
Parish, State of Louisiana opinion filed
April 28, 2017………………………………………………….3b
APPENDIX C (State of Louisiana Court of Appeal, First
Circuit opinion filed July 25, 2017…………………..……10c
APPENDIX D (Supreme Court of Louisiana opinion
Filed…………………………………………………………...11d
APPENDIX E (United States District Court Eastern
District of Louisiana opinion filed June 12, 2019…..…..12e
APPENDIX F (United States District Court Eastern
District of Louisiana opinion filed August 2, 2019……..23f
APPENDIX G (United States Court of Appeal for the
Fifth Circuit opinion filed June 30, 2020………………..32g

